TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   More Actions Are Needed to Correct the
                 Security Roles and Responsibilities Portion
                of the Computer Security Material Weakness



                                         August 26, 2010

                              Reference Number: 2010-20-084




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


MORE ACTIONS ARE NEEDED TO                             procedures and guidelines, 3) properly conduct
CORRECT THE SECURITY ROLES AND                         compliance assessments to test IT procedures,
RESPONSIBILITIES PORTION OF THE                        and 4) establish effective metrics for measuring
COMPUTER SECURITY MATERIAL                             compliance.
WEAKNESS                                               The IRS uses two documents, IRS Roles
                                                       Requiring an IT Security Training Curriculum
                                                       and Internal Revenue Manual IT Security Roles
Highlights                                             and Responsibilities, to document security roles
                                                       and responsibilities. While each document is
Final Report issued on August 26, 2010                 used for different purposes, the Internal
                                                       Revenue Manual acts as the official policy over
Highlights of Reference Number: 2010-20-084            security roles and responsibilities. TIGTA
to the Internal Revenue Service Chief                  identified that for 10 of 18 roles similar in both
Technology Officer.                                    documents, the manual did not include all
                                                       responsibilities established in the training
IMPACT ON TAXPAYERS                                    curriculum. The IRS also did not document an
The Federal Managers’ Financial Integrity Act          additional five IT security roles existing at the
of 1982 requires that each agency conduct              IRS in the Internal Revenue Manual. Further,
annual evaluations of its systems of internal          the IRS did not properly conduct compliance
accounting and administrative controls and             assessments to verify and validate that IRS and
submit an annual statement on the status of the        contract employees were executing their
agency’s system of management controls,                security responsibilities. Lastly, because the
including identifying areas that can be                compliance assessment did not yield significant
considered material weaknesses. The Internal           information, the IRS has yet to establish or
Revenue Service (IRS) prematurely closed the           collect meaningful performance metrics for this
security roles and responsibilities component of       weakness area.
its computer security material weakness. As a          WHAT TIGTA RECOMMENDED
result, the IRS cannot ensure all IRS and
contract employees will carry out their                TIGTA recommended that the Associate Chief
responsibilities to protect the confidentiality,       Information Officer, Cybersecurity, update the
integrity, and availability of taxpayer data.          Internal Revenue Manual to include all IT
                                                       security roles in existence at the IRS, establish
WHY TIGTA DID THE AUDIT                                recurring processes and communications to
TIGTA initiated this audit at the request of the       ensure security roles and responsibilities are
IRS to provide an independent validation               periodically reviewed and updated, and develop
assessment of the effectiveness of the IRS’            procedures to validate compliance that
actions to correct the roles and responsibilities      incorporate supporting evidence of proper
component of the computer security material            execution of assigned responsibilities. In
weakness. This audit was included in TIGTA’s           addition, the roles and responsibilities
Fiscal Year 2010 Annual Audit Plan.                    component of the computer security material
                                                       weakness should be reopened.
WHAT TIGTA FOUND
                                                       In their response to the report, IRS officials
While the IRS has made strides in addressing           agreed with 3 of the 4 recommendations. The
each set of corrective actions, our analysis           IRS believes the roles and responsibilities
found that the IRS did not effectively complete        component should be downgraded to a
four of its six corrective action objectives.          “Significant Deficiency” rather than be reopened.
Specifically, the IRS did not 1) document all          TIGTA disagrees with the IRS’ assessment and
information technology (IT) security roles and         believes repeatable processes are not in place.
responsibilities in the Internal Revenue Manual,       As such, TIGTA does not agree with the
2) develop and document day-to-day IT security         downgrade.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 26, 2010


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – More Actions Are Needed to Correct the Security
                             Roles and Responsibilities Portion of the Computer Security Material
                             Weakness (Audit #200920016)

 This report presents the results of our review to determine whether the Internal Revenue Service
 has effectively resolved the vulnerabilities relating to the information technology security roles
 and responsibilities component of the Internal Revenue Service computer security material
 weakness and implemented repeatable processes to ensure that this weakness does not recur.
 This review was included in the Treasury Inspector General for Tax Administration
 Fiscal Year 2010 Annual Audit Plan and is part of our statutory requirements to annually review
 the adequacy and security of IRS information technology. This audit also addresses the major
 management challenge of Security.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-8510.
                                         More Actions Are Needed to Correct the
                                       Security Roles and Responsibilities Portion
                                      of the Computer Security Material Weakness




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Not All Information Technology Security Roles
          Were Documented in the Internal Revenue Manual,
          and Day-to-Day Security Procedures and Guidelines
          Were Not Developed and Documented ........................................................Page 4
                    Recommendation 1:........................................................Page 8

          Compliance Assessments Were Not Properly Conducted
          to Test and Validate Whether Security Roles and
          Responsibilities Were Being Carried Out.....................................................Page 8
                    Recommendation 2:........................................................Page 12

          Effective Metrics for Measuring and Improving
          Compliance With Information Technology Security Roles
          and Responsibilities Were Not Established ..................................................Page 13
                    Recommendation 3:........................................................Page 14

                    Recommendation 4:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Internal Revenue Manual Roles Missing
          Responsibilities in the Training Curriculum.................................................Page 19
          Appendix V – Management’s Response to the Draft Report .......................Page 21
           More Actions Are Needed to Correct the
         Security Roles and Responsibilities Portion
        of the Computer Security Material Weakness




               Abbreviations

FISMA    Federal Information Security Management Act
GAO      Government Accountability Office
IT       Information Technology
IRM      Internal Revenue Manual
IRS      Internal Revenue Service
NIST     National Institute of Standards and Technology
OMB      Office of Management and Budget
TIGTA    Treasury Inspector General for Tax Information
                                    More Actions Are Needed to Correct the
                                  Security Roles and Responsibilities Portion
                                 of the Computer Security Material Weakness




                                             Background

The Federal Managers’ Financial Integrity Act of 1982 1 requires that each agency conduct
annual evaluations of its systems of internal accounting and administrative controls and submit
an annual statement on the status of the agency’s system of management controls. As part of the
annual evaluations, agency managers identify control areas that can be considered material
weaknesses. From its guidance on the Federal Manager’s Financial Integrity Act, the
Department of the Treasury and the Office of Management and Budget (OMB) define material
weaknesses as “shortcomings in operations or systems which, among other things, severely
impair or threaten the organization’s ability to accomplish its mission or to prepare timely,
accurate financial statements or reports,” or “compromises the security of its information,
information systems, personnel, or other resources, operations, or assets.” The OMB monitors
progress on material weaknesses declared by Federal Government agencies.
As a result of its Federal Manager’s Financial Integrity Act evaluation and financial audit
conducted by the Government Accountability Office (GAO) in 1997, the Internal Revenue
Service (IRS) designated computer security as a material weakness. Subsequent to this
declaration, the IRS further categorized the computer security material weakness into nine
components, 2 one of which covered security roles and responsibilities. The IRS defined this
component as appropriately delineating security roles and responsibilities within functional
business, operating, and program units throughout the IRS. To help in its efforts to improve
computer security, the IRS received a $90 million increase for its information technology (IT)
and computer security material weakness initiative for Fiscal Year 2010.
To address this component of the computer security material weakness, the IRS developed a plan
to formally track and monitor the following corrective actions for resolving the security roles and
responsibilities weakness.
    1. Document IT security roles and responsibilities for IRS organizational units and for
       individual roles or positions.




1
 31 U.S.C. §§ 1105, 1113, and 3512.
2
 The computer security material weakness components include: 1) network access controls; 2) key computer
applications and system access controls; 3) software configuration; 4) functional business, operating, and program
units security roles and responsibilities; 5) segregation of duties between system and security administrators;
6) contingency planning and disaster recovery; 7) monitoring of key networks and systems; 8) security training; and
9) certification and accreditation. The segregation of duties, security training, and certification and accreditation
components have been closed.
                                                                                                             Page 1
                                   More Actions Are Needed to Correct the
                                 Security Roles and Responsibilities Portion
                                of the Computer Security Material Weakness



    2. Develop and document day-to-day IT security procedures and guidelines for the
       execution and enforcement of security standards consistent with defined security roles
       and responsibilities.
    3. Conduct independent compliance assessments to verify and validate that employees in
       IT security roles are properly executing their roles and responsibilities.
    4. Conduct compliance assessments (i.e., social engineering tests) to revalidate that security
       roles and responsibilities are being properly carried out.
    5. Develop and implement an updated communications strategy targeted at reinforcing
       IT security roles and responsibilities.
    6. Establish and maintain collection and reporting of metrics 3 to assess the successful
       operation of the policy and ensure continuous monitoring of program areas.
The IRS reported the completion of all action items in its plan in March 2009, and the Security
Services and Privacy Executive Steering Committee approved the closure of the security roles
and responsibilities component. The IRS requested that the Treasury Inspector General for Tax
Administration (TIGTA) provide an independent validation assessment of the effectiveness of
the IRS’ actions to address the security roles and responsibilities component of the computer
security material weakness.
This review, which represents our validation efforts as requested by the IRS, was performed at
the IRS National Headquarters in New Carrollton, Maryland, in the Office of Cybersecurity
during the period September 2009 through April 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




3
 Tools designed to facilitate decision making and improve performance and accountability through collection,
analysis, and reporting of relevant performance-related data.
                                                                                                          Page 2
                                   More Actions Are Needed to Correct the
                                 Security Roles and Responsibilities Portion
                                of the Computer Security Material Weakness




                                     Results of Review

We reviewed available supporting documentation relating to the activities on the IRS’ corrective
actions for resolving the security roles and responsibilities component of the computer security
material weakness and found that the IRS had completed all actions for only two of six sets of
corrective actions presented on its corrective action plan. The IRS effectively developed and
implemented updated communications strategies. Specifically, the IRS increased security
awareness through displays, electronic newsletters, literature, security surveys, and making
security staff available to answer employees’ questions. The IRS also required all IRS and
contract employees to complete an annual information protection briefing, which highlights
information security policies on roles and responsibilities. In addition, the IRS hired a consulting
firm to conduct social engineering efforts to revalidate security roles and responsibilities.
While the IRS has made strides in addressing each set of corrective actions, we found that the
IRS did not effectively complete four of its six corrective actions and that not all actions taken by
the IRS were effective in achieving its stated objectives. Figure 1 presents our results of each set
of corrective actions.
                         Figure 1: Assessment by Corrective Actions
                                                        Documentation Documentation      Were the
                                                          of Actions     of Actions     Documented
    Corrective Actions Necessary to Support                Support        Support        Corrective
    Closure of the Roles and Responsibilities             Corrective    Corrective        Actions
     Component of the Computer Security                 Action Closure Action Closure     Taken
               Material Weakness                           per IRS      per TIGTA        Effective?
1. Document IT Security Roles and Responsibilities           Yes             No              No
2. Develop and Document Day-to-Day IT Security               Yes             No              No
Procedures and Guidelines
3. Conduct Compliance Assessments to Verify and              Yes             No              No
Validate Security Roles and Responsibilities
4. Conduct Compliance Assessments (i.e., Social              Yes            Yes             Yes
Engineering) to Revalidate Security Roles and
Responsibilities
5. Develop and Implement Updated Communications              Yes            Yes             Yes
Strategy
6. Establish Metrics to Measure Successful Operations        Yes             No              No
Source: TIGTA Analyses and Interviews



                                                                                              Page 3
                               More Actions Are Needed to Correct the
                             Security Roles and Responsibilities Portion
                            of the Computer Security Material Weakness



Because of the lack of progress in completing corrective actions and implementing repeatable
processes to ensure this weakness does not recur and the recent evidence of employee
noncompliance with security responsibilities, we believe the IRS prematurely closed the security
roles and responsibilities component, which should have remained open as part of the computer
security material weakness. Specifically, the IRS did not:
   •    Document all IT security roles and responsibilities in the Internal Revenue Manual (IRM)
        and develop day-to-day IT security procedures and guidelines.
   •    Properly conduct compliance assessments to test the implementation of day-to-day
        IT procedures.
   •    Establish effective metrics for measuring and improving compliance with IT security
        roles and responsibilities.

Not All Information Technology Security Roles Were Documented in
the Internal Revenue Manual, and Day-to-Day Security Procedures
and Guidelines Were Not Developed and Documented

Established security roles at the IRS were not included in the IRM
The IRS issued the IRM section IT Security Roles and Responsibilities in December 2005 (and
subsequently updated it in March 2007) to define and document IT security roles and
responsibilities for IRS and contract employees and to support the closure of one of its planned
corrective actions. In addition, the IRS developed and issued the training curriculum IRS Roles
Requiring an IT Security Training Curriculum for employees performing in IT security roles
with significant security duties. This curriculum was issued in April 2008 and was last updated
in February 2009. It also defined IT security roles and responsibilities and provided both a
curriculum for each role and the number of specialized IT security training hours required. The
primary difference in these two documents is that the training curriculum specifically identifies
security roles with significant security duties that require specialized training and the manual acts
as the IRS’ official policy over all security roles and responsibilities.
Although many roles are similar in both documents, the IRS did not document all IT security
roles existing at the IRS into the IRM. The following 5 of 28 roles identified in the training
curriculum are not included in the IRM. Employees performing in these security roles did not
have official security-related responsibilities as set forth in the IRM. As of December 2009, the
IRS reported the following number of employees performing in these roles.
   1.   Computer Audit Specialist (293 employees).
   2.   Functional Workstation Specialist (222 employees).
   3.   Technical Support Staff (855 employees).
   4.   Management/Program Analyst (569 employees).

                                                                                              Page 4
                                More Actions Are Needed to Correct the
                              Security Roles and Responsibilities Portion
                             of the Computer Security Material Weakness



   5. System Designer (41 employees).
In addition, we found that for 10 of 18 roles that are similar in both documents, the IRM did not
include all of the responsibilities that were established in the training curriculum. These
10 roles, along with the number of missing responsibilities, are as follows:
   1.   Chief Information Officer (1 responsibility).
   2.   Designated Accrediting Authority (1 responsibility).
   3.   Information Systems Security Officer (2 responsibilities).
   4.   Manager (2 responsibilities).
   5.   Privacy Official (3 responsibilities).
   6.   Program Management Official (4 responsibilities).
   7.   Security Specialist (2 responsibilities).
   8.   Senior Agency Information Security Officer (1 responsibility).
   9.   Systems Operations Staff (3 responsibilities).
  10.   Telecommunications Voice Specialist (5 responsibilities).
Appendix IV provides the details of the missing responsibilities for these 10 roles. Because the
IRS uses both documents for different purposes, we believe the differences between the two
documents may cause confusion over what each employee’s official security-related
responsibilities are.
The roles and responsibilities between these two documents were misaligned because the IRS
Cybersecurity organization did not effectively communicate within its own groups the intent of
each document or define which document contained the authoritative list of security roles and
responsibilities for the IRS. During the course of our review, Cybersecurity organization
personnel stated that the IRM was developed to document IT security “positions,” not “roles”
with significant security duties that require specialized training, despite the title of the document
and its use to support the closure of their corrective action. They also stated that not all
“positions” in the manual have significant IT security duties and did not require specialized
training. In addition, Cybersecurity organization personnel stated that the Department of the
Treasury policy does not require security “positions” in the IRM and IT security roles in the
training curriculum to align. Subsequently, the Cybersecurity organization indicated that the
IRM is the IRS’ authoritative policy for identifying baseline IT security roles and
responsibilities.
IRS and contract employees performing in IT security roles for which the IRS has not
established official responsibilities cannot be held accountable for compliance with official
duties. In addition, the discrepancy between the IRM and training curriculum roles may cause
managers to not properly identify employees and contract employees as performing in
IT security roles, whether for completing required specialized training or for assessing
compliance with security responsibilities.


                                                                                               Page 5
                                   More Actions Are Needed to Correct the
                                 Security Roles and Responsibilities Portion
                                of the Computer Security Material Weakness



Treasury-required and National Institute of Standards and Technology
(NIST)-recommended security roles were not included in the IRM
The Department of the Treasury IT Security Program’s Treasury Directive Publication 85-01
designates specific officials with key security responsibilities to ensure the success of the
agency’s security program. The Treasury Directive states that, in order to protect the integrity,
confidentiality, and availability of information and information systems, individuals must
understand their security-related roles and responsibilities. The Directive also identifies roles
that require annual specialized IT security training. We found that the IRM lacked the following
five key security roles that the Treasury Directive required:
    •   IT Security Policy and Guidance Personnel.
    •   Help Desk Personnel.
    •   Incident Handler.
    •   Quality Assurance Personnel.
    •   Change Management Staff.
In addition, the NIST Special Publication 800-16, Draft Information Security Training
Requirements: A Role and Performance-Based Model, 4 recommends specialized training for
employees performing in the following security roles, which were not evident in the IRS manual:
    •   Technical Support Personnel.
    •   Incident Response Coordinator/First Responders.
    •   Freedom of Information Act Official.
    •   Records Management Official.
    •   Office of General Counsel Staff.
    •   Source Selection Board Member.
    •   Risk/Vulnerability Analyst.
    •   Assessor.
    •   Risk Executive.
    •   Security Engineer.
    •   Data Center Manager.
Our analysis revealed IRS employees with similar responsibilities as the Department of the
Treasury and NIST roles listed above. IRS employees who may have been performing in the
various security roles listed above that were not yet formally documented in the IRM were
sometimes identified with a more general security role category. For example, employees tasked
with writing IRS security policy were identified as security specialists when the IT Security
Policy and Guidance Personnel role would have been more appropriate. Also, employees tasked

4
 NIST is responsible for developing standards and guidelines, including minimum requirements, and for providing
adequate information security for all agency operations and assets.
                                                                                                        Page 6
                               More Actions Are Needed to Correct the
                             Security Roles and Responsibilities Portion
                            of the Computer Security Material Weakness



with handling incidents were identified as security specialists when the Incident Handler role
would have been more appropriate.
This occurred because the IRS had not effectively completed its work to identify and document
all existing security roles at the IRS, assign appropriate responsibilities to these roles, and
identify the employees performing in these roles. In addition, the IRS did not have an effective
repeatable process to ensure the manual is periodically updated to ensure all security roles in
existence at the IRS are documented. This should be done through an adequate recurring review
of the IRS environment, Treasury regulations, and applicable NIST guidance.
Cybersecurity organization personnel advised us that the lengthy process the IRS undergoes to
update the manual prevented them from incorporating all Treasury-required and appropriate
NIST-recommended IT security roles since its last update. However, they also advised us that
the IRM is currently being updated and that Department of the Treasury and NIST roles are
being considered. The Cybersecurity organization will establish recurring communications
within its groups to ensure authorized IT security roles are aligned and consistent in both the
IRM and training document.
Until the IRS has officially documented all security roles and responsibilities in existence at its
agency and implemented a repeatable process to ensure roles and responsibilities are periodically
reviewed and updated, it cannot ensure that all IRS and contract employees performing in these
roles are complying with their appropriate security-related responsibilities. As a result, the IRS
may be at more risk to the latest security threats and vulnerabilities.

Day-to-day IT security procedures and guidelines were not developed and
documented
The IRS corrective action plan for resolving the roles and responsibilities component of its
computer security material weakness required the IRS to develop and document day-to-day
IT security procedures and guidelines for organizational units in executing and enforcing security
standards consistent with defined security roles and responsibilities. The IRS closed this
corrective action in February 2006. However, the sole artifact provided to us in support of this
closure was the IT Security Roles and Responsibilities manual. This manual is the baseline
policy on which specific day-to-day standard operating procedures and guidance for complying
with security responsibilities should be based. This baseline policy is broad in nature and does
not provide specificity of day-to-day operating procedures and guidance.
The Cybersecurity organization explained that personnel who worked on this corrective action
were no longer with the organization and did not leave current Cybersecurity organization
personnel with any further documentation. Recognizing this deficiency, the Cybersecurity
organization sent out a request to the various business units to provide their standard operating
procedures for implementing role-based responsibilities. At the time of our review, the
Cybersecurity organization received documentation on day-to-day security procedures from one
business unit. The Cybersecurity organization plans to collect and develop a catalog of security
                                                                                            Page 7
                               More Actions Are Needed to Correct the
                             Security Roles and Responsibilities Portion
                            of the Computer Security Material Weakness



role-related procedures and guidelines, which will then be used to ensure the day-to-day
procedures align with IRS policy.
Until the IRS has documented and reviewed security role-related day-to-day procedures and
guidelines in existence within its business units, it cannot ensure all employees performing in
security roles are complying with their security-related responsibilities consistent with IRS
policy.

Recommendation
Recommendation 1: The Associate Chief Information Officer, Cybersecurity, should:
1) update the IRM to include all IT security roles in existence at the IRS (including roles from
the training curriculum, those required by the Department of the Treasury, and those
recommended by the NIST, as appropriate) and the related responsibilities for each of these
roles; 2) establish recurring processes and communications to ensure security roles and
responsibilities in the IRM are periodically reviewed and updated and alignment between the
IRM and the training curriculum is maintained; and 3) establish a process to periodically collect,
update, and review security role-related procedures and guidelines to ensure day-to-day
procedures align with current IRS policy.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will: 1) update the IRM to include all IT security roles and related responsibilities in
       existence at the IRS; 2) perform a crosswalk of the IRM with the IRS Specialized IT
       Security Training program annually and align any role differences; and 3) enhance its
       existing process to periodically collect, update, and review security role-related
       procedures and guidelines to ensure day-to-day procedures align with current IRS policy.

Compliance Assessments Were Not Properly Conducted to Test and
Validate Whether Security Roles and Responsibilities Were Being
Carried Out

Completed assessments did not validate compliance with IRS security policy
The IRS corrective action plan for resolving the roles and responsibilities component also
required the IRS to conduct compliance assessments to verify and validate that employees in
IT security roles were properly executing their security responsibilities. The Cybersecurity
organization conducted two surveys, in June 2008 and February 2009, on employee compliance
with their security roles and responsibilities. The Cybersecurity organization was in the process
of reviewing the compliance survey results, as metrics data were not specific enough to
demonstrate a trend of improvement, when the roles and responsibilities component was
presented to the Security Services and Privacy Executive Steering Committee for closure
approval. Based upon actions taken on the roles and responsibilities component, and without the
                                                                                            Page 8
                               More Actions Are Needed to Correct the
                             Security Roles and Responsibilities Portion
                            of the Computer Security Material Weakness



results of the compliance surveys, the Security Services and Privacy Executive Steering
Committee approved the closure on March 25, 2009. The Cybersecurity organization
subsequently established new metrics and conducted two additional compliance surveys, in May
and August 2009, yielding greater than 99 percent of employees being aware of their roles,
having knowledge of polices and guidance over their roles, and appropriately performing duties
defined for their assigned roles. The Cybersecurity organization plans to continue conducting
these compliance surveys at least annually to ensure continued compliance with established
policies and procedures.
However, we found that the assessments that the IRS conducted were not sufficient to validate
employee compliance with security responsibilities. The compliance surveys did not actually
test for compliance with security responsibilities. To “test” selected employees, the
Cybersecurity organization developed questionnaires by reproducing the roles and
responsibilities listed in the 2005 version of the IRM. Questionnaires were sent to employees in
advance of the interviews. The employee responded to the questionnaire by simply answering
“yes” or “no” to whether or not they complied with the responsibilities listed or by referring to
other organizations or employees if they believed that they were not responsible for that task.
The Cybersecurity organization took no further action to validate employees’ positive responses
to ensure employees’ compliance with their responsibilities. Also, referrals of responsibilities
made by employees to other organizations or employees were not verified or followed up on to
confirm compliance. Furthermore, surveyors conducting the compliance assessments did not
have adequate knowledge of the security areas to determine whether responsibilities were
correctly referred and, therefore, relied solely on the oral testimony of employees’ understanding
of their roles and responsibilities.
Asking employees whether or not they are responsible for various security-related activities may
help instill knowledge and understanding of these responsibilities, but their responses do not in
themselves provide evidence of compliance with their responsibilities. The Cybersecurity
organization subsequently advised us that the intent of the exercise was not to assess employee
compliance, but to assess the employee’s knowledge of his or her security responsibilities. To
remedy this difference, the Cybersecurity organization informed us that it is in the process of
establishing improved compliance assessment procedures that will produce measurable results.
For example, the Cybersecurity organization plans to explore using the results of scans run on
systems that determine the system’s compliance with security settings for validating employee
compliance with security policy.

Not all IRS and contract employees performing in IT security roles have been
identified
We also found that the delivery of compliance surveys was flawed because not all IRS and
contract employees performing in IT security roles were included in the population for
compliance testing. IRS business unit managers are responsible for identifying employees

                                                                                           Page 9
                                        More Actions Are Needed to Correct the
                                      Security Roles and Responsibilities Portion
                                     of the Computer Security Material Weakness



performing in IT security roles that require specialized training within their respective business
units. To identify their employees in IT security roles, managers are asked to review the role
descriptions in the IRS Roles Requiring an IT Security Training Curriculum to determine which
best matches their employees’ responsibilities. Once identified, managers request that these
employees be added to the IT SEC Training Master List (Master List). The IRS uses the Master
List to monitor the identified employees’ progress towards completion of their required training
hours and for reporting this information to the OMB in accordance with Federal Information
Security Management Act (FISMA) 5 requirements.
The Cybersecurity organization relied solely on the Master List as its basis for employee
selection when conducting the compliance surveys. Because the Master List contains only IRS
employees identified in IT security roles requiring specialized training, not all employees in
existing IT security roles specified by the IRM, required by the Department of the Treasury, or
recommended by the NIST were included in the population for compliance testing.
The IRM contained 11 additional IT security roles that the training curriculum did not contain.
Therefore, IRS and contract employees performing in these roles were not assessed for
compliance or for completion of training requirements as needed. To determine the number of
IRS employees performing in these 11 roles, we researched the IRS directory for similar titles.
However, because the IRS directory position titles do not necessarily align with security role
titles, we were unable to identify, with absolute certainty, the number of IRS and contract
employees performing in these security roles. Based on our research, we estimated the number
of IRS and contract employees potentially filling these roles as follows. 6
      1.   Agency Head (1 employee).
      2.   Certification Agent.
      3.   Senior Management/Executive (65 employees).
      4.   Business System Planner.
      5.   Information Owner.
      6.   Accrediting Official Designated Representative.
      7.   Enterprise Architect (9 employees).
      8.   Chief Financial Officer (1 employee).
      9.   Physical Security Officer (45 employees).
     10.   Personnel Security Officer (15 employees).
     11.   Encryption Recovery Agent.
Cybersecurity organization personnel advised us that they are aware that relying on managers to
identify employees in security roles that require specialized training may cause some employees
to not be on the Master List or included in the survey population because managers do not


5
    44 U.S.C. §§ 3541 - 3549.
6
    A security role listed without a corresponding number indicates the security role did not align with a position title.
                                                                                                                 Page 10
                                  More Actions Are Needed to Correct the
                                Security Roles and Responsibilities Portion
                               of the Computer Security Material Weakness



always apply the role definitions consistently. The IRS is developing new techniques for
identifying employees performing in all existing security roles.
Further, we also found that the Master List did not include contract employees. The IRS is not
required to provide specialized training to contract employees because the contract organization
is responsible for its contract employees to have and maintain the necessary level of technical
expertise to accomplish the various tasks defined within the contracts. The IRS also advised us
that no after-hire formal compliance process exists that reports on the accuracy of a contract
employee’s adherence to published policy and procedures. Instead, assurance for whether a
contract employee is performing his or her work in adherence to established policy and
procedure is the day-to-day responsibility of the IRS project manager and contract representative
overseeing the contract employee’s work.
Even so, contract employees may be performing in IT security roles with the same
responsibilities as IRS employees and, therefore, should be identified in these roles and included
in the population for selection in the compliance testing. We identified more than 1,350 contract
employees with system access that held titles related to security roles, such as system
administrators, database administrators, programmers, developers, security specialists, system
architects, system engineers, and web developers. These job titles may or may not align with
IRS security roles.
The IRS has not yet established an adequate method to identify which contractors are performing
in IRS security roles. However, the Cybersecurity organization informed us that it plans to
develop a process to identify contract employees with system access for inclusion in the
compliance assessment population and to include instructions in the compliance assessment
standard operating procedures to incorporate contract employees as part of the compliance
surveys.

Employees selected for the compliance surveys were not measured against
current or role-based IT security responsibilities
As mentioned earlier, the IRS developed questionnaires by reproducing the roles and
responsibilities listed from the 2005 version of the IRM. Although a 2007 version had been
issued, the IRS continued to use the older version 7 in order to facilitate consistent testing and
trending of results. However, we identified 6 roles in the 2005 version that were updated with
25 additional responsibilities in the 2007 version. As a result, significant responsibilities were
not included in the questionnaires, such as the following two examples.
    •   Security specialists must conduct security audits, verifications, and acceptance checks,
        while maintaining documentation on the results.


7
 The IRS used the older version of the IRM for all but four of its roles when conducting the compliance
assessments. The four roles include Desktop Employee, Manager, Telecom Specialist, and System Administrator.
                                                                                                     Page 11
                                   More Actions Are Needed to Correct the
                                 Security Roles and Responsibilities Portion
                                of the Computer Security Material Weakness



    •   Contracting Officers Technical Representatives must protect any personally identifiable
        information that they have in their possession, whether it is paper-based or in electronic
        form.
In addition, for compliance survey selected employees in roles that did not clearly translate to an
IRM role, 8 Cybersecurity organization personnel conducted the compliance survey using generic
“employee” responsibilities covering basic security awareness and training instead of against
specific role-based responsibilities. This approach occurred because the IRS had not yet fully
developed or implemented authoritative security roles and responsibilities enterprise-wide nor
developed adequate and repeatable procedures to validate compliance security-related
responsibilities.
Until the IRS fully documents its security roles and related responsibilities, is able to identify
IRS and contract employees performing in these roles, and develops adequate and repeatable
processes to validate employees’ and contractor employees’ compliance with their
security-related responsibilities, the IRS cannot ensure that its security procedures and policies
are being carried out as intended.

Recommendation
Recommendation 2: The Associate Chief Information Officer, Cybersecurity, should:
1) develop an effective and repeatable method to identify all IRS and contract employees
performing in established IT security roles, 2) include all IRS and contract employees
performing in IT security roles in the population for potential selection in the compliance
assessments, and 3) develop adequate procedures to validate compliance with current security
role-related responsibilities through compliance assessments that incorporate supporting
evidence of proper execution of assigned responsibilities.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS has an effective and repeatable method to identify all IRS employees performing in
        established IT security roles. The IRS will incorporate contract employees in its existing
        method for identifying IRS employees in established IT security roles by including them
        in its yearly requests to IRS training coordinators asking for names of all IRS and
        contract employees who perform security roles. The IRS will use this population of all
        IRS and contract employees for potential selection in the compliance assessments. In
        addition, the IRS will improve existing procedures to validate compliance with current
        security role-related responsibilities through compliance assessments that incorporate
        supporting evidence of proper execution of assigned responsibilities.



8
 These roles are Computer Audit Specialist, Functional Workstation Specialist, Technical Support Staff,
Management/Program Analyst, and System Designer.
                                                                                                          Page 12
                                    More Actions Are Needed to Correct the
                                  Security Roles and Responsibilities Portion
                                 of the Computer Security Material Weakness



         Office of Audit Comment: The TIGTA disagrees that the IRS has an effective and
         repeatable method in place to identify all IRS employees performing in established IT
         security roles. The referenced method is the process the IRS has used to identify
         employees in IT security roles requiring specialized training, based on the IRS’ IT
         Security Training Curriculum document. As stated in our report, this method was not
         sufficiently identifying all employees performing in the roles currently requiring
         specialized training, nor was it sufficient to identify all employees in IT security roles
         specified by the IRM, required by the Department of the Treasury, or recommended by
         the NIST. For that reason, the IRS previously informed us that it was developing new
         techniques for identifying these employees. We maintain that the IRS needs to improve
         its identification methods of IRS and contract employees performing in all established IT
         security roles to ensure an accurate population is maintained and compliance with
         security responsibilities is properly assessed.

Effective Metrics for Measuring and Improving Compliance With
Information Technology Security Roles and Responsibilities Were Not
Established
The final step in the IRS corrective action plan for resolving the roles and responsibilities
component of its computer security material weakness required the IRS to establish and maintain
the collection and reporting of metrics to assess the successful operation of the policy regarding
roles and responsibilities and ensure continuous monitoring of the program area. Because the
compliance assessments did not yield significant information, the IRS has yet to establish or
collect meaningful metrics.
As with the other incomplete corrective actions, the IRS informed us it plans to: 1) establish
sufficient metrics that will allow analysis of key trends or themes that require improvement,
2) communicate these issues to management, 3) use the metrics information to develop targeted
communications, and 4) effect continued process improvement in role execution.
The IRS believes the actions taken thus far support the downgrade of the security roles and
responsibilities component from a material weakness to a control deficiency, and it has
repeatable processes in place that address the key issues and significant risks posed by the
original finding. 9 The IRS also believes that its planned additional actions will further strengthen
and enhance its existing repeatable processes.
We believe that the repeatable processes are not in place over this computer security material
weakness component area. While we agree the actions planned, once implemented, would


9
 During the course of this review, the IRS assessed the roles and responsibilities component as a control deficiency;
but in their official management response to the draft report, the IRS reassessed this component and increased its
materiality one level higher to a significant deficiency.
                                                                                                            Page 13
                                   More Actions Are Needed to Correct the
                                 Security Roles and Responsibilities Portion
                                of the Computer Security Material Weakness



appear to fully address this weakness, we cannot support a downgrade of this component based
on planned actions. Because controls have not been fully implemented and repeatable processes
are not in place, both the TIGTA and the GAO have continued to identify multiple instances in
the past year where employees have not performed their assigned responsibilities. Examples
include systems administrators not complying with secure password requirements that led to
servers insufficiently protected, security officers not promptly removing employee physical
access to restricted areas, employees not properly configuring system access that allowed
unencrypted data to be transferred between centers, an employee executing the roles of both
database administrator and system administrator despite policy prohibiting this combination of
system rights, 10 and Contracting Officers’ Technical Representatives not performing day-to-day
contract oversight or verifying deliverables. 11
Until the IRS completes its official documentation of all security roles and related
responsibilities, identifies all IRS and contract employees performing in security roles, ensures
all employees are equipped with appropriate training, implements adequate procedures to
validate compliance with employee security responsibilities, and establishes adequate collection
and reporting of metrics to improve roles and responsibilities implementation, the IRS cannot
ensure all IRS and contract employees will carry out their responsibilities to protect the
confidentiality, integrity, and availability of taxpayer data.

Recommendations
Recommendation 3: The Associate Chief Information Officer, Cybersecurity, should ensure
adequate and accurate metrics are established that assess progress and can be analyzed to
develop actions to further improve implementation of security roles and responsibilities policy.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS’ Modernization and Information Technology Services Cybersecurity organization
        will establish memoranda of understanding/memoranda of agreements with IRS business
        and functional units to ensure adequate and accurate metrics are established. The
        memoranda will define metrics and establish measures. The Cybersecurity organization
        will also work with the business and functional units to determine the required metric
        information, format, and timelines for continuous collection and reporting and to effect
        continued process improvement.
Recommendation 4: The Director of Wage and Investment, Business Systems Planning, and
the Associate Chief Information Officer, Cybersecurity, as the Co-Chairpersons of the Security
Services and Privacy Executive Steering Committee, should review the findings in this report

10
   Information Security – IRS Needs to Continue to Address Significant Weaknesses (Reference Number
GAO-10-355, dated March 2010).
11
   Controls Over the Contracting Officer’s Technical Representatives Workforce Were Ineffective, Resulting in
Significant Risks to the Government (Reference Number 2009-10-139, dated September 30, 2009).
                                                                                                         Page 14
                              More Actions Are Needed to Correct the
                            Security Roles and Responsibilities Portion
                           of the Computer Security Material Weakness



and reopen the roles and responsibilities component of the computer security material weakness.
The roles and responsibilities component should remain open until corrective actions have been
fully implemented and completed, repeatable processes are in place, and results can be validated.
       Management’s Response: IRS management disagreed with this recommendation.
       After reviewing this report and the recurring processes and procedures in place, the IRS
       believes this component of the computer security material weakness has dropped below
       the threshold of materiality as defined by the GAO. The IRS considers this component in
       a state of “Significant Deficiency” and will maintain focus, with appropriate governance
       oversight, on maturing these processes and procedures to comply with applicable best
       practices and further reducing their overall risk.
       Office of Audit Comment: The TIGTA disagrees with IRS’ assessment that the roles
       and responsibilities component of the computer security material weakness be
       downgraded to a significant deficiency. As stated in our report, the lack of progress in
       completing four of the six corrective actions and implementing repeatable processes to
       ensure this weakness does not recur, along with the recent evidence of employee
       noncompliance with security responsibilities, preclude us from agreeing to a downgrade
       at this time.




                                                                                         Page 15
                              More Actions Are Needed to Correct the
                            Security Roles and Responsibilities Portion
                           of the Computer Security Material Weakness



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has effectively resolved
the vulnerabilities relating to the information technology security roles and responsibilities
component of the IRS computer security material weakness, and implemented repeatable
processes to ensure that this weakness does not recur. Specifically, we:
I.     Determined whether the actions taken to resolve the security roles and responsibilities
       vulnerabilities were sufficient to close this component of the IRS computer security
       material weakness.
       A.     Reviewed prior TIGTA and GAO reports for Fiscal Years 2007–2009 and other
              applicable IRS documentation regarding the security roles and responsibilities.
              We determined whether the IRS satisfactorily completed prior TIGTA
              recommendations relating to security roles and responsibilities and closed them in
              the Joint Audit Management Enterprise System, if applicable.
       B.     Determined whether the IRS policy for roles and responsibilities complies with
              Federal and Department of the Treasury regulations.
       C.     Determined whether the IRS has completed its own planned corrective actions for
              resolving the roles and responsibilities component of the IRS computer security
              material weakness.
       D.     Determined whether the performance metrics established by the IRS are effective
              for monitoring compliance and ensuring that the security roles and responsibilities
              weakness will not recur.
       E.     Interviewed appropriate IRS management as needed to determine causes for
              deficiencies found in the IRS security roles and responsibilities program.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Department of the Treasury regulations,
Government guidelines, IRS policies, and the IRS computer security material weakness plan of
actions. We evaluated these internal controls by interviewing management and reviewing
supporting documentation.

                                                                                          Page 16
                             More Actions Are Needed to Correct the
                           Security Roles and Responsibilities Portion
                          of the Computer Security Material Weakness



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director, Systems Security
Jody L. Kitazono, Audit Manager
Louis Lee, Lead Auditor
Richard Borst, Senior Auditor
Kasey Koontz, Auditor




                                                                                     Page 17
                           More Actions Are Needed to Correct the
                         Security Roles and Responsibilities Portion
                        of the Computer Security Material Weakness



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Director, Business Modernization Office, Wage and Investment Division SE:W:BMO
Director, Business Systems Planning, Wage and Investment Division SE:W:BMO:BSP
Director, Stakeholder Management Division OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison:
       Chief Technology Officer OS:CTO




                                                                                 Page 18
                               More Actions Are Needed to Correct the
                             Security Roles and Responsibilities Portion
                            of the Computer Security Material Weakness



                                                                                   Appendix IV

          Internal Revenue Manual Roles Missing
         Responsibilities in the Training Curriculum

The following roles defined in IRM 10.8.2 were missing responsibilities listed in the training
curriculum document. The discrepancies in these two documents may cause employees
confusion over their official security-related responsibilities.
1. Chief Information Officer
   •   Conducts training and awareness programs.
2. Designated Accrediting Authority
   •   The creation, maintenance, and execution of the plan of action and milestones.
3. Information Systems Security Officer
   •   Ensuring there is a current security plan and IT contingency plan for the assigned general
       support system.
   •   Promoting IT security awareness and assisting in the identification of personnel with
       significant security responsibilities to receive both initial and refresher role-based
       security training.
4. Manager
   •   Providing technical direction of or supervision over an employee or employees with
       significant security roles, such as Security Specialist; System Administrator (responsible
       for maintaining access controls or system security parameters), or Network Administrator
       (responsible for maintaining secure configuration of a network).
   •   Providing technical direction of or supervision over employees who ensure the
       confidentiality, integrity, and availability of the network and its information resources.
5. Privacy Official
   •   Establishing and managing privacy policies and the Privacy Impact Assessment
       processes/procedures.
   •   Managing a centralized evaluation capability to oversee compliance with Unauthorized
       Access policy and program.



                                                                                            Page 19
                               More Actions Are Needed to Correct the
                             Security Roles and Responsibilities Portion
                            of the Computer Security Material Weakness



   •   Reporting on the progress of the IRS efforts being taken and making recommendations
       for improving the effectiveness of the Unauthorized Access program to IRS
       Management.
6. Program Management Official
   •   Ensures that the business impact of weaknesses are assessed and prioritized.
   •   Ensures all certification and accreditation documents exist and are updated, including the
       Privacy Impact Assessment.
   •   Identifies business unit personnel in need of security training.
   •   Escalates issues to appropriate parties as necessary.
7. Security Specialist
   •   Determining strategy and priorities.
   •   Performing a role in business continuity planning.
8. Senior Agency Information Security Officer
   •   Oversees the submission of the formal FISMA reports and their supporting processes,
       and also oversees IRS responses to TIGTA and GAO audits.
9. Systems Operations Staff
   •   Runs all backup and data maintenance tasks according to the systems’ specific schedule.
   •   Directly accounts for the security of all physical/mechanical aspects of the system and
       coordinates any external interaction with the system, such as those involving customer
       engineers/vendor technicians.
   •   Keeps logs of the results of all scheduled system tasks and shares that information with
       systems administration personnel to facilitate monitoring of the system.
10. Telecommunications Voice Specialist
   •   Voice messaging system applications, which includes adding, deleting, and modifying
       users.
   •   All circuitry ingression and egression at all facilities under his/her control.
   •   Video applications (compressed and satellite).
   •   Employee relocations, ensuring that all telephonic equipment is relocated correctly and
       timely.
   •   Monitoring the network system with authorized tools to ensure a healthy state.

                                                                                         Page 20
            More Actions Are Needed to Correct the
          Security Roles and Responsibilities Portion
         of the Computer Security Material Weakness



                                                   Appendix V

Management’s Response to the Draft Report




                                                        Page 21
   More Actions Are Needed to Correct the
 Security Roles and Responsibilities Portion
of the Computer Security Material Weakness




                                               Page 22
   More Actions Are Needed to Correct the
 Security Roles and Responsibilities Portion
of the Computer Security Material Weakness




                                               Page 23
   More Actions Are Needed to Correct the
 Security Roles and Responsibilities Portion
of the Computer Security Material Weakness




                                               Page 24
